Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





  MEDICARE ADMINISTRATIVE 

 LAW JUDGE HEARINGS: EARLY 

 IMPLEMENTATION, 2005–2006 





                    Daniel R. Levinson

                     Inspector General 


                       July 2008

                     OEI-02-06-00110

                 Office of Inspector General

                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
Δ       E X E C U T I V E                                              S U M M A R Y


                               OBJECTIVE
                               1.	 To assess the Office of Medicare Hearings and Appeals’ (OMHA) use
                                   of telephone, video teleconference, and in-person hearings to decide
                                   Medicare administrative law judge (ALJ) cases during the first
                                   13 months of operation.

                               2.	 To assess the timeliness of ALJ decisions during the first 13 months
                                   of operation.


                               BACKGROUND
                               Medicare beneficiaries, providers, and suppliers of health care services
                               can appeal certain decisions related to their Medicare claims.
                               Currently, the Medicare administrative appeals process includes four
                               levels. The third level is ALJ hearings.

                               Beginning in July 2005, the responsibility for conducting ALJ hearings
                               was transferred from the Social Security Administration (SSA) to
                               OMHA in the Department of Health and Human Services. The SSA
                               hearings were held primarily in person at the 141 Social Security offices
                               throughout the country. Under SSA, there was no timeliness
                               requirement for appeal decisions. In contrast, OMHA, with four field
                               offices, planned to use primarily telephone and video teleconference to
                               conduct ALJ hearings. Further, OMHA faced a new statutory
                               requirement that certain cases be decided within 90 days.

                               In December 2005, members of Congress wrote to the Office of Inspector
                               General (OIG) and requested that we assess the use of telephone, video
                               teleconference, and in-person hearings to decide Medicare ALJ cases
                               and that we examine the extent to which OMHA is meeting the new
                               statutory requirement that it decide certain cases within 90 days.
                               Other cases, including those filed prior to the transfer, are not subject to
                               the 90-day decision requirement. The members of Congress were also
                               concerned about whether a heavy reliance on telephone and video
                               teleconference hearings might compromise Medicare beneficiaries’
                               access to the ALJ appeals process. Additionally, a June 2005
                               Government Accountability Office study raised concerns about whether
                               hearings held via video teleconference are an appropriate substitute for
                               in-person hearings.



O E I - 0 2 - 0 6 - 0 0 11 0   M E D I C A R E A D M I N I S T R AT I V E L AW J U D G E H E A R I N G S : E A R LY I M P L E M E N TAT I O N , 2 0 0 5 – 2 0 0 6   i
E X E C U T I V E                                     S U           M M A R Y


                                OMHA uses the Medicare Appeals System (hereafter referred to as the
                                appeals system) to manage its caseload. We based this study on an
                                analysis of data from the appeals system for OMHA’s first 13 months of
                                operation, structured interviews with appellants associated with a
                                random sample of cases, and structured interviews with OMHA staff.


                                FINDINGS
                                In its first 13 months of operation, OMHA conducted an estimated
                                three-quarters of its hearings by telephone. During its first
                                13 months of operation, OMHA conducted 78 percent of its hearings by
                                telephone, 12 percent by video teleconference, and 10 percent in person.
                                Several factors contributed to the high usage of hearings by telephone.
                                Specifically, OMHA staff did not consistently offer hearings by video
                                teleconference; when given the choice, appellants often selected
                                hearings by telephone over hearings by video teleconference; and
                                OMHA granted in-person hearings only in limited situations.
                                Most sample appellants were satisfied with their hearing format.
                                Both OMHA staff and sample appellants highlighted specific
                                advantages and disadvantages of each hearing format. Sample
                                appellants who had telephone or video teleconference hearings reported
                                some communication and technical difficulties with those hearing
                                formats.
                                Incomplete and inaccurate data limit OMHA’s ability to manage its
                                caseload. For over 70 percent of the cases that were decided in the first
                                13 months of OMHA’s operation, there was no indication about which
                                parties were the primary appellants. Moreover, information about
                                appellants was not consistently entered in the system, making it
                                difficult for OMHA to appropriately consolidate cases and to track
                                frequent users of the appeals process. In addition, many key dates in
                                the system were inaccurate and many key dates were missing. Lastly,
                                information about the hearing type and format was frequently
                                incomplete or incorrect.
                                Available data indicate that in its first 13 months of operation, OMHA
                                did not decide a number of its cases in a timely manner. We found
                                that 15 percent of the cases that had a 90-day requirement and a
                                decision date in the appeals system were not decided on time. On
                                average, cases with the 90-day requirement took 82 days to decide.
                                Cases without the 90-day requirement took an average of 25 days longer
                                to decide. For cases both with and without the 90-day requirement,

 O E I - 0 2 - 0 6 - 0 0 11 0   M E D I C A R E A D M I N I S T R AT I V E L AW J U D G E H E A R I N G S : E A R LY I M P L E M E N TAT I O N , 2 0 0 5 – 2 0 0 6   ii
E X E C U T I V E                                     S U           M M A R Y


                                delays occurred early in the appeals process—from the time when
                                OMHA received the appeal request to the time when OMHA staff
                                scheduled the hearing.


                                RECOMMENDATIONS
                                Based on the findings in the report, we recommend that OMHA:

                                Consistently offer appellants the option of video teleconference.
                                OMHA should consistently direct appellants to hearings by video
                                teleconference, if available. To ensure compliance with the regulations,
                                OMHA should standardize its scheduling process and document
                                whether the ALJ made a determination that video teleconference
                                technology was available or whether the hearing request or
                                administrative record suggested that a telephone hearing might be
                                more convenient for one or more of the parties. Further, OMHA should
                                encourage staff to identify available video teleconference sites before
                                contacting the appellant to schedule the hearing, when appropriate.
                                OMHA should also have standard protocols for making and
                                documenting decisions to grant in-person hearings.
                                Continue to improve the timeliness of deciding cases with the
                                90-day decision requirement. OMHA should meet the 90-day statutory
                                timeframe for all cases subject to this requirement. OMHA should pay
                                particular attention to reducing the delays that occur between the time
                                when OMHA receives the appeal request and the time when staff
                                schedule a hearing. OMHA should also ensure that meeting the 90-day
                                decision requirement does not cause undue delays for cases without the
                                90-day decision requirement.
                                Address problems associated with telephone and video
                                teleconference hearings. OMHA should address the problems
                                associated with holding hearings over the telephone and via video
                                teleconference. OMHA should work with its contractors to ensure that
                                the video teleconference equipment is set up on time and available for the
                                duration of the hearing. It should also work to eliminate any technical
                                difficulties, such as feedback and poor picture quality. Finally, OMHA
                                should develop strategies for referring to documents in the case files to
                                help improve communication between appellants and ALJs during the
                                hearings.
                                Improve the quality of the data in the appeals system. OMHA should
                                ensure that the data problems that we identified have been addressed.
                                Specifically, OMHA should continue to improve the quality of the data

 O E I - 0 2 - 0 6 - 0 0 11 0   M E D I C A R E A D M I N I S T R AT I V E L AW J U D G E H E A R I N G S : E A R LY I M P L E M E N TAT I O N , 2 0 0 5 – 2 0 0 6   iii
E X E C U T I V E                                     S U           M M A R Y


                                so that it can use the appeals system to better manage its caseload and
                                more accurately report on key aspects of the program. OMHA should
                                also continue to refine its data standardization policy and provide any
                                necessary training to staff. Lastly, OMHA should institute regular data
                                checks to eliminate invalid entries and instances of missing data.


                                AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                                RESPONSE
                                OMHA concurred with all four of our recommendations based on our
                                analysis of its first 13 months of operations. OMHA noted that it had
                                previously identified the same findings and recommendations as
                                internal areas of concern and has taken measures to address them.

                                In response to our first recommendation, OMHA noted that it has
                                implemented a comprehensive training program for staff involved in
                                scheduling hearings to standardize the scheduling process and ensure
                                that staff understand the statutory and regulatory hearing
                                requirements. It also performs random unannounced screenings of the
                                scheduling procedures and has modified the appeals system to record
                                and track the requested and actual hearing formats.

                                In response to our second recommendation, OMHA stated that it has
                                improved its case processing times for the cases subject to the 90-day
                                decision statutory timeframe as well as for the cases not subject to the
                                90-day requirement.

                                In response to our third recommendation, OMHA stated that it has
                                taken numerous steps to address technical difficulties associated with
                                telephone and video teleconference hearings. For example, OMHA
                                performed significant software upgrades to its video teleconference
                                infrastructure and has in place for staff guidance regarding coordination
                                with vendors for real-time resolution of technical issues and extensions
                                of hearing duration.

                                In response to our fourth recommendation, OMHA stated that it has
                                instituted additional business rules and recurring data checks for logic
                                in the appeals system. OMHA has also implemented a data
                                standardization policy and training on the new requirements. OMHA is
                                also examining inaccuracies in many date fields and will include date
                                validation changes in upgrades to the appeals systems later this year.

                                We recognize OMHA’s efforts to address these issues and encourage it
                                to continue to make progress in these areas.

 O E I - 0 2 - 0 6 - 0 0 11 0   M E D I C A R E A D M I N I S T R AT I V E L AW J U D G E H E A R I N G S : E A R LY I M P L E M E N TAT I O N , 2 0 0 5 – 2 0 0 6   iv
Δ   T A B L E            O F           C O N T E N T S



         EXECUTIVE SUMMARY ..................................... i




         INTRODUCTION ........................................... 1




         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11 

           Three-quarters of hearings were held by telephone . . . . . . . . . . . . . . . . 11 


           Most sample appellants were satisfied with their hearing format . . . . 13 


           Incomplete and inaccurate data limit OMHA’s ability to manage its
           caseload . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15 


           OMHA did not decide a number of its cases in a timely manner . . . . . . 16 




         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20 




         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23 

                    A: Medicare Administrative Appeals Process . . . . . . . . . . . . . . . . 23 


                    B: Number of Sample Cases, by Stratum . . . . . . . . . . . . . . . . . . . 26 


                    C: 	Inaccuracies in Hearing Format Data . . . . . . . . . . . . . . . . . . . 27 


                    D: 	Confidence Intervals for Selected Estimates . . . . . . . . . . . . . . 28 


                    E: 	Cases That Failed to Meet 90-Day Requirement, 

                        by Quarter. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29 


                    F: 	Average Number of Days to Decision . . . . . . . . . . . . . . . . . . . . 30 


                    G: 	Timeliness of Cases Without a 90-Day Requirement . . . . . . . 31 


                    H: 	OMHA Comments. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32 




         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35 

Δ       I N T R O D U C T I O N


                               OBJECTIVE
                               1.	 To assess the Office of Medicare Hearings and Appeals’ (OMHA) use
                                   of telephone, video teleconference, and in-person hearings to decide
                                   Medicare administrative law judge (ALJ) cases during the first
                                   13 months of operation.

                               2.	 To assess the timeliness of ALJ decisions during the first 13 months
                                   of operation.


                               BACKGROUND
                               Medicare beneficiaries, providers, and suppliers of health care services
                               can appeal certain decisions related to their Medicare claims.
                               Currently, the Medicare administrative appeals process includes four
                               levels. The third level is ALJ hearings.

                               Beginning in July 2005, the responsibility for conducting ALJ hearings
                               was transferred from the Social Security Administration (SSA) to
                               OMHA in the Department of Health and Human Services (HHS). The
                               SSA hearings were held primarily in person at the 141 Social Security
                               offices throughout the country. Under SSA, there was no timeliness
                               requirement for appeal decisions. In contrast, OMHA, with four field
                               offices, planned to use primarily telephones and video teleconferences to
                               conduct ALJ hearings. Further, OMHA faced a new statutory
                               requirement that certain cases be decided within 90 days.

                               In December 2005, members of Congress wrote to the Office of Inspector
                               General (OIG) and requested that we assess the use of telephone, video
                               teleconference, and in-person hearings to decide Medicare ALJ cases
                               and that we examine the extent to which OMHA is meeting the new
                               statutory requirement that it decide certain cases within 90 days.
                               Other cases, including those filed prior to the transfer, are not subject to
                               the 90-day decision requirement. The members of Congress were also
                               concerned about whether a heavy reliance on telephone and video
                               teleconference might compromise Medicare beneficiaries’ access to the
                               ALJ appeals process. Additionally, a June 2005 Government
                               Accountability Office (GAO) study raised concerns about whether




O E I - 0 2 - 0 6 - 0 0 11 0   M E D I C A R E A D M I N I S T R AT I V E L AW J U D G E H E A R I N G S : E A R LY I M P L E M E N TAT I O N , 2 0 0 5 – 2 0 0 6   1
I N T R O D                     U C T             I O N


                                 hearings held via video teleconference are an appropriate substitute for
                                 in-person hearings.1
                                 Four-Level Medicare Administrative Appeals Process
                                 There are four levels of the Medicare administrative appeals process
                                 within HHS. For Medicare Parts A and B, the four levels are:
                                    •       Level One: Affiliated Contractor redeterminations
                                    •       Level Two: Qualified Independent Contractor reconsiderations
                                    •       Level Three: ALJ hearings
                                    •       Level Four: Medicare Appeals Council hearings
                                 If appellants disagree with the outcome of the prior level of appeal, they
                                 may take their case to the next level. For example, if an appellant is not
                                 satisfied with the reconsideration by the Qualified Independent
                                 Contractor, the appellant may request a hearing before an ALJ. The
                                 ALJ independently reviews the case and makes a decision in accordance
                                 with applicable laws and regulations. After exhausting the four levels
                                 of the administrative appeals process, an appellant may file an action in
                                 a Federal District Court. Appendix A provides an overview of each of
                                 the four levels of the administrative appeals process for Medicare Parts
                                 A and B.

                                 Different procedures exist for appealing determinations under Medicare
                                 Parts C (the Medicare Advantage program) and D (the Medicare
                                 prescription drug benefit). For Level One and Level Two appeals, the
                                 entities that decide the appeals for Medicare Parts C and D are different
                                 from the entities that decide the appeals for Medicare Parts A and B.
                                 However, for Level Three, the ALJ is responsible for deciding all
                                 Medicare appeals, including Medicare Parts C and D appeals.2
                                 OMHA
                                 The Medicare Prescription Drug, Improvement, and Modernization Act of
                                 2003 (MMA) required SSA to transfer the responsibility for Medicare ALJ
                                 hearings to HHS.3 On June 23, 2005, HHS established OMHA to conduct
                                 these hearings.4

                                 1 GAO, “Medicare: Concerns Regarding Plans to Transfer the Appeals Workload from SSA 

                                 to HHS Remain,” GAO-05-703R, June 30, 2005. 

                                 2 42 CFR § 422.600 (regarding right to an ALJ hearing under Medicare Part C);

                                  42 CFR § 423.610 (regarding right to an ALJ hearing under Medicare Part D).

                                 3 Medicare Prescription Drug, Improvement, and Modernization Act of 2003, 

                                 P.L. No. 108-173, § 931.

                                 4 70 Fed. Reg. 36386 (June 23, 2005). OMHA began operations on July 1, 2005. 





 O E I - 0 2 - 0 6 - 0 0 11 0    M E D I C A R E A D M I N I S T R AT I V E L AW J U D G E H E A R I N G S : E A R LY I M P L E M E N TAT I O N , 2 0 0 5 – 2 0 0 6   2
I N T R O D                     U C T             I O N


                                 When HHS established OMHA, it planned to use primarily telephones and
                                 video teleconferences for ALJ hearings. In a March 2004 report to
                                 Congress, HHS described its plan to expand the use of telephone and video
                                 teleconference hearings, stating that the plan would allow OMHA to
                                 conduct them more efficiently.5 The report stated that, unlike SSA
                                 disability hearings where in-person hearings may be needed to evaluate
                                 credibility, Medicare hearings are less dependent on the physical presence
                                 of the appellant and other witnesses.

                                 Currently, OMHA has offices in four cities around the country. OMHA’s
                                 central office and one of its field offices are located in Arlington,
                                 Virginia; it has three other field offices in Cleveland, Ohio; Miami,
                                 Florida; and Irvine, California. Staff at the field offices are responsible
                                 for scheduling and conducting hearings.
                                 Federal Requirements
                                 Section 521 of the Medicare, Medicaid, and State Children’s Health
                                 Insurance Program Benefits Improvement and Protection Act of
                                 2000 (BIPA) amended section 1869 of the Social Security Act (the Act) to
                                 establish a uniform process for handling Medicare Parts A and B
                                 appeals and to impose shorter timeframes for the processing of appeals.6
                                 The Centers for Medicare & Medicaid Services promulgated regulations
                                 to address the changes to the appeals process required by the BIPA and
                                 the MMA.7
                                 Section 1869(d)(1)(A) of the Act, as amended by the BIPA, generally
                                 requires that ALJs issue a decision about a case within 90 days of the
                                 date that the appeal request was filed.8 The 90-day requirement applies
                                 to all Medicare Parts A and B appeals received after the
                                 implementation of the BIPA, unless the appellant waives the right to
                                 have the case decided within 90 days9 or OMHA approves a request for
                                 an in-person hearing.10 The 90-day requirement does not apply to
                                 Medicare Parts C or D appeals. An appellant can request an ALJ


                                 5 The Secretary of HHS and the Commissioner of SSA, “Report to Congress: Plan for the 

                                 Transfer of Responsibility for Medicare Appeals,” March 2004. 

                                 6 Medicare, Medicaid, and State Children’s Health Insurance Program Benefits 

                                 Improvement and Protection Act of 2000, P.L. No. 106-554 § 521. 

                                 7 70 Fed. Reg. 11420 (Mar. 8, 2005), as amended at 70 Fed. Reg. 37700 (June 30, 2005). 

                                 8 42 U.S.C. § 1395ff(d)(1)(A); 42 CFR § 405.1016(a).

                                 9 42 U.S.C. § 1395ff(d)(1)(B); 42 CFR § 405.1036(d). 

                                 10 42 CFR § 405.1020(i)(4). In addition, cases that are escalated to OMHA because the 

                                 prior level did not complete the reconsideration within the federally required timeframe are 

                                 not subject to the 90-day decision requirement. See 42 CFR § 405.1016(c). 




 O E I - 0 2 - 0 6 - 0 0 11 0    M E D I C A R E A D M I N I S T R AT I V E L AW J U D G E H E A R I N G S : E A R LY I M P L E M E N TAT I O N , 2 0 0 5 – 2 0 0 6   3
I N T R O D                     U C T             I O N


                                 hearing by filing a written request within 60 days of receiving a Level
                                 Two decision.11 The ALJ must mail or serve a notice of hearing at least
                                 20 days before the hearing.12
                                 Federal regulations state that the ALJ will direct that the appearance of
                                 an individual be conducted by video teleconference, if the ALJ finds that
                                 video teleconferencing technology is available to conduct the
                                 appearance.13 The regulations go on to state that the ALJ may also
                                 offer to conduct a hearing by telephone if the hearing request or
                                 administrative record suggests that a telephone hearing may be more
                                 convenient for one or more of the parties. If video teleconference
                                 technology is not available or if special or extraordinary circumstances
                                 exist, the ALJ may determine that an in-person hearing should be
                                 conducted. Moreover, if a party objects to a hearing via telephone or
                                 video teleconference, the party may file a written request for an
                                 in-person hearing, which the ALJ may grant if there is good cause.14 To
                                 determine whether good cause exists, the ALJ considers the party’s
                                 reason for requesting the change, the facts supporting the request, and
                                 the impact on the efficient administration of the hearing process.15 For
                                 example, an ALJ may find that there is good cause for an in-person
                                 hearing if the party is close to and able to go to an OMHA field office or
                                 if the case presents complex, challenging, or novel presentation issues.16
                                 In certain circumstances, the ALJ may make an on-the-record decision
                                 that is based only on the case file and does not require a hearing.17
                                 Medicare Appeals System
                                 The Medicare Appeals System (hereinafter referred to as the appeals
                                 system) was designed to create a unified case tracking system across the


                                 11 42 CFR § 405.1014(b)(1) (pertaining to Medicare Parts A and B). Similar requirements 

                                 exist for Medicare Part C at 42 CFR § 422.602(b) and for Medicare Part D at 

                                 42 CFR § 423.612(b).

                                 12 42 CFR § 405.1022(a).

                                 13 42 CFR § 405.1020(b) (pertaining to Medicare Parts A and B). Federal regulations state 

                                 that the time and place for ALJ hearings for Medicare Parts C and D must be set in 

                                 accordance with 42 CFR § 405.1020. 42 CFR § 422.602(b) (regarding Medicare Part C); 

                                 42 CFR § 423.612(b) (regarding Medicare Part D).

                                 14 42 CFR § 405.1020(i).

                                 15 42 CFR § 405.1020(g).

                                 16 See 70 Fed. Reg. 11420, 11457 (Mar. 8, 2005) (preamble discussion regarding good cause 

                                 for in-person hearings).

                                 17 42 CFR § 405.1038. The ALJ can issue an on-the-record decision if the decision is fully 

                                 favorable, if all parties wish to forgo a hearing, or if an appellant who lives outside the 

                                 United States does not inform the ALJ that the appellant wants to appear and no other 

                                 parties wish to appear. 




 O E I - 0 2 - 0 6 - 0 0 11 0    M E D I C A R E A D M I N I S T R AT I V E L AW J U D G E H E A R I N G S : E A R LY I M P L E M E N TAT I O N , 2 0 0 5 – 2 0 0 6   4
I N T R O D                     U C T             I O N


                                 four levels of administrative appeal once the ALJ function was
                                 transferred from SSA to HHS. The appeals system stores and
                                 facilitates the transfer of case-specific data. In September 2003, CMS
                                 contracted with CGI Federal to develop and maintain the appeals
                                 system. Currently, Levels Two and Three of the appeals process use the
                                 appeals system.

                                 The appeals system includes a variety of case-specific information that
                                 OMHA uses to manage its caseload. It includes information such as the
                                 type of service being contested, the hearing format, the date when
                                 OMHA received the appeal request, and the date when the decision
                                 letter was sent to the appellant. It also lists the parties involved with
                                 each case; indicates which party is the primary appellant; and specifies
                                 whether each party is a Medicare provider or supplier, a beneficiary, or
                                 a State Medicaid organization.18 OMHA staff can input new data into
                                 the appeals system regarding Level Three of the appeals process.
                                 Related Work
                                 In January 2002, OIG released a report that analyzed the potential
                                 impact of the BIPA on the Medicare administrative appeals process.19
                                 OIG found that the former process for ALJ appeals was backlogged and
                                 recommended modernizing the appeals process. It also recommended
                                 that HHS develop a training program for all reviewers at all levels of
                                 appeals to ensure common knowledge, understanding, and information
                                 about the appeals process. HHS concurred with the recommendations.

                                 In a report released in October 2004, GAO evaluated the transfer plan
                                 developed by HHS and SSA.20 GAO found that the plan generally
                                 addressed all of the elements mandated by the MMA, such as a
                                 timetable, cost projections, and information about the development of
                                 the appeals system. However, the plan omitted important information,
                                 such as specific transition milestones and details related to the
                                 feasibility of using video teleconferences to provide access to ALJs.




                                 18 These organizations serve as appointed representatives for State Medicaid agencies.  

                                 A State Medicaid agency may appeal services provided to beneficiaries who are dually

                                 eligible for Medicaid and Medicare to determine whether Medicare is liable for the payment 

                                 rather than the Medicaid program. 

                                 19 OIG, “Medicare Administrative Appeals: The Potential Impact of BIPA,”           

                                 OEI-04-01-00290, January 2002. 

                                 20 GAO, “Medicare: Incomplete Plan to Transfer Appeals Work Load from SSA to HHS 

                                 Threatens Service to Appellants,” GAO-05-45, October 4, 2004. 




 O E I - 0 2 - 0 6 - 0 0 11 0    M E D I C A R E A D M I N I S T R AT I V E L AW J U D G E H E A R I N G S : E A R LY I M P L E M E N TAT I O N , 2 0 0 5 – 2 0 0 6   5
I N T R O D                     U C T             I O N


                                 In a follow-up report released in June 2005, GAO highlighted the
                                 challenges of ensuring sufficient availability of hearings given the
                                 limited access to in-person hearings.21 GAO also noted that the hiring
                                 and training timetables for ALJs and support staff were ambitious and
                                 that HHS continued to face challenges such as the implementation of
                                 the appeals system.

                                 In addition, OIG is currently conducting an evaluation of Level Two of
                                 the appeals process. That evaluation will assess the extent to which
                                 Qualified Independent Contractors met timeliness, correspondence, and
                                 data entry requirements for reconsiderations processed during the
                                 initial months of operation.


                                 METHODOLOGY
                                 We based this study on several sources: (1) an analysis of data from the
                                 appeals system for the first 13 months of OMHA’s operation,
                                 (2) structured telephone interviews with appellants associated with a
                                 random sample of cases, and (3) structured interviews with key OMHA
                                 management staff and a randomly selected sample of OMHA field office
                                 staff.
                                 Data From the Appeals System
                                 We requested and reviewed the most recent data then available from
                                 the appeals system. These data were for the first 13 months of OMHA’s
                                 operation, July 1, 2005, through July 31, 2006, and included
                                 20,783 cases. The data were organized by case. Each case may have
                                 multiple claims. Each case may also have multiple parties, one of whom
                                 may be identified as the primary appellant. We met with OMHA staff
                                 on several occasions to ensure that we had a thorough understanding of
                                 the data and the way in which OMHA used the information.
                                 Structured Telephone Interviews With Sample Appellants
                                 We selected a random sample of cases and, between January and March
                                 2007, conducted structured telephone interviews with the primary
                                 appellant associated with each. If the primary appellant was not
                                 identified in the appeals system, we contacted one of the parties and
                                 asked him or her to identify the primary appellant. We selected our
                                 sample based on case as opposed to primary appellant for several
                                 reasons: the data were organized by case, each party could be

                                 21 GAO, “Medicare: Concerns Regarding Plans to Transfer the Appeals Workload from SSA
                                 to HHS Remain,” GAO-05-703R, June 30, 2005.



 O E I - 0 2 - 0 6 - 0 0 11 0    M E D I C A R E A D M I N I S T R AT I V E L AW J U D G E H E A R I N G S : E A R LY I M P L E M E N TAT I O N , 2 0 0 5 – 2 0 0 6   6
I N T R O D                      U C T              I O N


                                   associated with multiple cases, and the appeals system did not always
                                   indicate which party was the primary appellant.

                                   As a first step, we identified 6,203 cases in the appeals systems that
                                   had had a hearing.22 A case may not have had a hearing primarily
                                   because it was decided through an on-the-record decision, it was
                                   consolidated with similar cases, or it was not completely processed at
                                   the time of our review.

                                   We then selected a stratified random sample of 270 cases from these
                                   6,203 cases. We stratified the sample based on the hearing format
                                   recorded in the appeals system to ensure that we interviewed
                                   appellants who used each of the hearing formats offered by OMHA.
                                   Our four strata were telephone, video teleconference, in-person, and an
                                   unidentified hearing format. We included a stratum for unidentified
                                   hearing format because 2,173 of the 6,203 cases did not have a hearing
                                   format recorded in the appeals system. Table 1 shows the number of
                                   cases we selected from each stratum.

                     Table 1: Population and Sample Size, by Stratum
                                                                                       Number of Cases With                                      Number of Cases With
                    Stratum
                                                                                    Hearings in the Population                                  Hearings in Our Sample
                    Telephone                                                                                           3,132                                           70

                    Video Teleconference                                                                                   464                                          75

                    In Person                                                                                              434                                          75

                    Unidentified                                                                                        2,173                                           50
                         Total                                                                                          6,203                                           270
                Source: OIG analysis of the Medicare Appeals System, 2007.


                                   We excluded 16 sample cases from our analysis. At the time of our
                                   review, OIG was conducting investigations related to appellants
                                   associated with 11 of these cases. The other five cases were excluded
                                   because they had been incorrectly recorded in the appeals system as
                                   having had a hearing.

                                   We successfully contacted the primary appellants associated with 225 of
                                   the remaining 254 cases, for a response rate of 89 percent. We were
                                   unable to contact the primary appellants or the primary appellants
                                   chose not to participate for the remaining 29 cases. Again, if the
                                   appeals system identified a primary appellant, we contacted that party.

                                   22 This number includes appeals under Medicare Parts A, B, C, and D.




 O E I - 0 2 - 0 6 - 0 0 11 0      M E D I C A R E A D M I N I S T R AT I V E L AW J U D G E H E A R I N G S : E A R LY I M P L E M E N TAT I O N , 2 0 0 5 – 2 0 0 6         7
I N T R O D                     U C T             I O N


                                 Otherwise, we contacted one of the parties associated with the case and
                                 asked him or her to identify the primary appellant. Appendix B
                                 describes this information by stratum.

                                 In total, we conducted structured interviews with the 131 appellants
                                 associated with the 225 cases. Twenty-two appellants were associated
                                 with more than one sample case, ranging from 2 to 35 cases. Because
                                 the appeals system was missing data on hearing format for a large
                                 percentage of the sample cases, we asked all appellants which format(s)
                                 they had used. Based on their responses, we found that in addition to
                                 lacking some data, the appeals system also had incorrect data on
                                 hearing format. See Appendix C for detailed information about the
                                 inaccuracies of the hearing format data. We discuss this issue further
                                 in the findings section of the report.

                                 We asked all of the appellants about their experiences with scheduling
                                 their hearings, about the information they received regarding the three
                                 hearing formats, and about the advantages and disadvantages of the
                                 different formats. Three sample appellants had used two different
                                 hearing formats. For these, we included their responses in our analysis
                                 of each of the formats.
                                 Structured Interviews With OMHA Staff
                                 We conducted structured in-person interviews with key OMHA staff.
                                 We interviewed the Chief ALJ and the Executive Director of OMHA.
                                 We also interviewed the Managing ALJ and the Hearing Office Director
                                 at each of the four field offices. In addition, we interviewed 12 randomly
                                 selected ALJ teams (3 from each of the four field offices) out of 49 ALJ
                                 teams. Each ALJ team included an ALJ, an attorney, a hearing clerk,
                                 and a paralegal. For the purposes of this report, we refer to these
                                 respondents as OMHA staff.

                                 Our interview questions focused primarily on OMHA’s processes for
                                 scheduling and conducting hearings, including how they selected the
                                 hearing format. We also asked about any obstacles that they
                                 experienced in scheduling and holding hearings. Finally, we asked
                                 about advantages and disadvantages of each of the hearing formats. We
                                 conducted these interviews between May and July 2006.
                                 Data Analysis
                                 We projected the results from our 225 sample cases to the population of
                                 OMHA cases that had a hearing to estimate: (1) the percentage of
                                 hearings conducted by telephone, by video teleconference, and in person;
                                 and (2) the percentage of hearings by appellant type. We used the

 O E I - 0 2 - 0 6 - 0 0 11 0    M E D I C A R E A D M I N I S T R AT I V E L AW J U D G E H E A R I N G S : E A R LY I M P L E M E N TAT I O N , 2 0 0 5 – 2 0 0 6   8
I N T R O D                     U C T             I O N


                                 sample of cases rather than the population of cases to determine the
                                 percentage of hearings conducted by telephone, by video teleconference,
                                 and in person because some data in the appeals system were inaccurate
                                 and some were missing from the system. Similarly, we used the sample
                                 of cases rather than the population of cases to determine the percentage
                                 of hearings by appellant type because the appeals system typically did
                                 not indicate which party was the primary appellant. We therefore used
                                 standard statistical formulas for producing estimates from a stratified
                                 random sample to arrive at these estimates. Appendix D provides the
                                 confidence intervals for these estimates.

                                 In addition, we analyzed the data from the appeals system to assess the
                                 timeliness of ALJ decisions. We analyzed the cases that were subject to
                                 the 90-day requirement (6,085 cases) separately from the cases that
                                 were not subject to this requirement (14,682 cases).23 As previously
                                 mentioned, the 90-day decision deadline applies to all Medicare Parts A
                                 or B appeals received after the implementation of the BIPA, unless the
                                 appellant signs a waiver relinquishing the right to have the case
                                 decided within 90 days, OMHA approves a request for an in-person
                                 hearing, or other special circumstances exist. The 90-day requirement
                                 does not apply to Medicare Parts C or D appeals.

                                 To conduct our analysis, we compared the date when OMHA received
                                 the appeal request to the date when OMHA sent a decision letter to the
                                 appellant. We did not include the cases that did not have decision letter
                                 dates. A case may not have this date because it was not decided or
                                 because the date had not been recorded in the appeals system. Because
                                 data were missing from other fields, we could not assume that the case
                                 had not been decided. Lastly, we included any allotted extension days
                                 plus a 3-day grace period to cover any holiday weekends.24
                                 Limitations
                                 We limited our results about appellants’ satisfaction with the different
                                 hearing formats to sample appellants. We could not generalize our
                                 results to all appellants because our unit of analysis was a case, rather


                                 23 Six of the cases subject to the 90-day requirement were excluded from the analysis
                                 because the decision date in the appeals system was recorded erroneously as being earlier
                                 than the date the appeals request was received. Ten of the cases not subject to the 90-day
                                 requirement were excluded for the same reason.
                                 24 The regulations provide for extension days in cases in which the hearing is postponed at
                                 the request of the appellant or in certain other circumstances, such as a party requesting
                                 discovery from another party. See 42 CFR §§ 405.1020(h) and 405.1037(f).



 O E I - 0 2 - 0 6 - 0 0 11 0    M E D I C A R E A D M I N I S T R AT I V E L AW J U D G E H E A R I N G S : E A R LY I M P L E M E N TAT I O N , 2 0 0 5 – 2 0 0 6   9
I N T R O D                     U C T             I O N


                                 than an appellant. As mentioned, data limitations in the appeals
                                 system did not allow us to sample by appellant. We discuss other
                                 limitations of the appeals system data in the findings section of the
                                 report.
                                 Standards
                                 This study was conducted in accordance with the “Quality Standards for
                                 Inspections” issued by the President’s Council on Integrity and
                                 Efficiency and the Executive Council on Integrity and Efficiency.




 O E I - 0 2 - 0 6 - 0 0 11 0    M E D I C A R E A D M I N I S T R AT I V E L AW J U D G E H E A R I N G S : E A R LY I M P L E M E N TAT I O N , 2 0 0 5 – 2 0 0 6   10
Δ       F I N D I N G S

                                                                      During its first 13 months of
        In its first 13 months of operation, OMHA
                                                                      operation, OMHA conducted
          conducted an estimated three-quarters                       78 percent of its hearings by
                          of hearings by telephone                    telephone, 12 percent by video
                                                                      teleconference, and 10 percent
                               in person. In 78 percent of the cases that had hearings, the primary
                               appellants were Medicare providers or suppliers. Another 15 percent of
                               these cases had primary appellants who were Medicare beneficiaries,
                               and 8 percent were pursued by State Medicaid organizations.25
                               Several factors contributed to the high usage of hearings by telephone.
                               Specifically, OMHA staff did not consistently offer hearings by video
                               teleconference; when given the choice, appellants often selected
                               hearings by telephone over hearings by video teleconference; and
                               OMHA granted in-person hearings only in limited situations.
                               OMHA staff did not consistently offer video teleconference
                               OMHA staff explained that, generally, they decide the hearing format
                               when they contact the primary appellant to schedule the hearing. Five
                               of the twelve ALJ teams that we interviewed stated that they directed
                               appellants to a video teleconference hearing as the default option,
                               whereas five other teams said that they offered both video
                               teleconference and telephone hearing options at the same time. The two
                               remaining teams discussed the process more generally. All of the teams
                               noted that appellants’ preferences are an important factor in deciding
                               the hearing format.

                               Staff further explained that they do not have a standardized script for
                               discussing the format options with the primary appellant or a standard
                               way of documenting how the format decision is made. They noted that
                               OMHA uses two private companies that have video teleconference sites
                               around the country. They can locate the 120 sites from one of the
                               companies online but need to call the other company to identify specific
                               video teleconference sites. Staff reported varying procedures for how
                               and when they identify available video teleconference sites for an
                               upcoming hearing.

                               In addition, sample appellants reported that OMHA staff promoted
                               telephone hearings over the other formats and did not always provide
                               video teleconference hearings as an option. Specifically, 35 percent


                               25 These numbers do not add to 100 percent because of rounding.




O E I - 0 2 - 0 6 - 0 0 11 0   M E D I C A R E A D M I N I S T R AT I V E L AW J U D G E H E A R I N G S : E A R LY I M P L E M E N TAT I O N , 2 0 0 5 – 2 0 0 6   11
F    I N D I N G 
S


                                   (46 of 131) of sample appellants reported that they were never offered
                                   video teleconference as an option. Three appellants reported that
                                   OMHA also promoted the telephone format by sending a letter stating
                                   that the hearing would be conducted over the telephone. It was not
                                   possible to determine the extent to which staff directed appellants
                                   toward video teleconference hearings in accordance with the
                                   regulations. OMHA does not currently require staff to document how
                                   the hearing format was decided, including documenting whether video
                                   teleconference technology was available or whether the hearing request
                                   or administrative record suggested that a telephone hearing may be
                                   more convenient for one or more of the parties.
                                   Appellants often selected the telephone over video teleconference
                                   For just over half of the hearings, appellants reported being offered both
                                   the telephone and video teleconference formats. Given the choice
                                   between the two formats, appellants selected the telephone format for
                                   over 75 percent of these hearings. OMHA staff and sample appellants
                                   commonly noted that appellants preferred the telephone format because
                                   it is convenient and cost-effective.
                                   OMHA granted in-person hearings in limited situations
                                   OMHA staff explained that in-person hearings are granted only in
                                   limited situations. Most sample appellants reported being granted
                                   in-person hearings because they were located near one of the four
                                   OMHA field offices or because they were willing to travel to one of the
                                   field offices at their own expense. OMHA staff further indicated that
                                   they did not have standardized protocols or written criteria for making
                                   and documenting decisions about in-person hearings.

                                   Several sample appellants noted that they would have preferred to have
                                   their hearing in person, as opposed to by video teleconference or
                                   telephone. Specifically, one-fifth of sample appellants who had a
                                   telephone or video teleconference hearing (22 of the 102) would have
                                   preferred to have their hearing in person. Most of these appellants
                                   (14 of 22), however, did not request an in-person hearing because of the
                                   time, travel, or cost involved in going to an OMHA field office or because
                                   they were not aware that an in-person hearing was available.




    O E I - 0 2 - 0 6 - 0 0 11 0   M E D I C A R E A D M I N I S T R AT I V E L AW J U D G E H E A R I N G S : E A R LY I M P L E M E N TAT I O N , 2 0 0 5 – 2 0 0 6   12
F    I N D I N G                    S            



                                                                            Although appellants were not
                       Most sample appellants were satisfied                consistently offered all hearing
                                   with their hearing format                format options, most sample
                                                                            appellants reported being
                                   satisfied with the format of their hearings. Sample appellants and
                                   OMHA staff also highlighted specific advantages and disadvantages of
                                   each hearing format.
                                   Almost all of the sample appellants who had telephone hearings were
                                   satisfied with that format
                                   Eighty of the eighty-four sample appellants who had a hearing over the
                                   telephone were satisfied with that format. Over 80 percent of these
                                   appellants stated that having their hearings over the telephone was
                                   convenient and saved them time and money because they did not have
                                   to travel to another location. Several appellants who were providers
                                   noted that the telephone option enabled them to have full access to their
                                   files during the hearing. A number of appellants explained that having
                                   their hearing in a familiar setting, such as their home or office, was an
                                   advantage.

                                   In addition, OMHA staff stated that holding hearings over the
                                   telephone is efficient and cost-effective. They explained that telephone
                                   hearings are easier to schedule than other types of hearings, partly
                                   because multiple parties can participate from different locations. They
                                   also generally noted that the telephone is the most inexpensive and
                                   convenient way by which to hear cases.

                                   Sample appellants and OMHA staff both noted several disadvantages of
                                   telephone hearings. Twenty-five appellants noted that communication
                                   suffered because of the lack of face-to-face contact with the ALJ, and
                                   31 appellants reported difficulties pointing out specific evidence in the
                                   case files. In addition, five appellants said that they did not have the
                                   same documents as the ALJ to refer to during the hearing. Finally,
                                   several appellants and OMHA staff also reported that they experienced
                                   technical difficulties with the telephone, such as hearing an echo or
                                   having the call dropped.
                                   Most of the sample appellants whose hearings were held via video
                                   teleconference were satisfied with that format
                                   Fourteen of the twenty sample appellants who had a hearing via video
                                   teleconference were satisfied with that format. Over half of these
                                   sample appellants reported that being able to see the ALJ made
                                   communication easier. They commonly cited benefits such as the

    O E I - 0 2 - 0 6 - 0 0 11 0   M E D I C A R E A D M I N I S T R AT I V E L AW J U D G E H E A R I N G S : E A R LY I M P L E M E N TAT I O N , 2 0 0 5 – 2 0 0 6   13
F    I N D I N G 
S


                                   convenience and the time and cost savings resulting from not having to
                                   travel to an in-person hearing.

                                   Based on our sample, 13 of the 20 appellants had their hearings at video
                                   teleconference sites owned by one company. The remaining appellants had
                                   their hearings either at Government buildings or at private sites. Over
                                   half of the sample appellants traveled less than 15 miles to their hearing
                                   site. The remaining sample appellants traveled less than 75 miles.

                                   Sample appellants and OMHA staff identified several disadvantages of
                                   conducting hearings via video teleconference. Nine of the twenty sample
                                   appellants reported technical difficulties, such as feedback, a lag in audio
                                   communication, difficulty setting up equipment, and poor picture quality.
                                   A few other appellants were unable to see or hear the other participants
                                   for some portion of the hearing. Additionally, two appellants reported that
                                   not enough time was scheduled for their hearings. OMHA staff also noted
                                   a few instances in which the equipment shut down before the hearing
                                   ended or the equipment had not been set up on time.
                                   Almost all of the sample appellants who had in-person hearings were
                                   satisfied with that format
                                   Twenty-eight of the thirty sample appellants who had an in-person
                                   hearing were satisfied with that format. Over three-quarters of these
                                   appellants noted that face-to-face contact with the ALJ was an
                                   advantage. Specifically, attending the hearings in person enabled
                                   appellants to more easily refer to evidence in the case files and to
                                   provide visual demonstrations, such as how to use certain medical
                                   equipment. OMHA staff similarly reported that in-person hearings
                                   allowed for an easy exchange of documents, which can be particularly
                                   helpful for hearings that involve a large number of claims.

                                   Sample appellants highlighted several disadvantages of this format.
                                   Almost half of the 30 sample appellants who had in-person hearings
                                   reported that these hearings were less convenient because of the travel
                                   time and the cost associated with having to go to an OMHA field office.
                                   In fact, over one-third of these appellants (13 of 30) had to travel more
                                   than 75 miles to the hearing site.




    O E I - 0 2 - 0 6 - 0 0 11 0   M E D I C A R E A D M I N I S T R AT I V E L AW J U D G E H E A R I N G S : E A R LY I M P L E M E N TAT I O N , 2 0 0 5 – 2 0 0 6   14
F    I N D I N G                    S            




                       Incomplete and inaccurate data limit               OMHA relies on the appeals
                      OMHA’s ability to manage its caseload               system as the primary
                                                                          mechanism to collect data about
                                   the program and to manage its caseload. Based on our review of the
                                   data for the first 13 months of OMHA’s operation, we found that
                                   information in the system was frequently inaccurate and that some
                                   information was missing from the system.

                                   We found that information about the primary appellant was often
                                   incomplete and inaccurate. For over 70 percent of the 11,778 cases that
                                   had a decision, there was no indication about which party was the
                                   primary appellant. Additionally, when we compared the data from our
                                   sample appellants to the data in the system, we found that, for
                                   13 percent of our sample cases, the primary appellant was not listed as
                                   one of the parties in the appeals system.

                                   Moreover, information about appellants was not consistently entered in
                                   the system. For example, one supplier that had almost 400 cases in the
                                   system was identified in a variety of ways: it had a standard Unique
                                   Physician Identification Number (UPIN) for 26 percent of its cases but
                                   no UPIN or an incomplete UPIN for 74 percent of its cases.26 These
                                   inconsistencies make it difficult for OMHA to appropriately consolidate
                                   related cases and to track frequent users of the appeals process.

                                   Also, many key dates in the system were inaccurate and many key dates
                                   were missing from the system. Specifically, the date field that indicates
                                   when OMHA sends letters to appellants acknowledging that their
                                   requests were received was missing for 71 percent of the cases that had
                                   been decided. The dates when OMHA requested and received the case
                                   file from the previous level of appeals were also missing for over
                                   three-quarters of the cases. Furthermore, for over 20 percent of the
                                   cases, at least one date was out of chronological order.

                                   Finally, as mentioned earlier, information about the hearing type and
                                   format was frequently incomplete or incorrect. Most notably, there was
                                   no information about whether there was a hearing or an on-the-record
                                   decision for almost one-third of the decided cases. For over a third of
                                   the cases that had a hearing, there was no information about whether it
                                   was conducted by telephone, by video teleconference, or in person. In
                                   addition, when we compared the responses from our sample appellants,

                                   26 We identified the cases for this supplier by matching UPINs, as well as the business
                                   name, address, and phone number, which were also not recorded consistently in the system.



    O E I - 0 2 - 0 6 - 0 0 11 0   M E D I C A R E A D M I N I S T R AT I V E L AW J U D G E H E A R I N G S : E A R LY I M P L E M E N TAT I O N , 2 0 0 5 – 2 0 0 6   15
F    I N D I N G                    S


                                   we found that the format for 11 percent of their hearings was incorrectly
                                   identified in the appeals system. In these cases, the system most
                                   commonly indicated that the hearing was in person when it actually
                                   occurred over the telephone. See Appendix C for more details.

                                   Subsequent to our analysis of the data, OMHA staff explained that they
                                   have worked with the contractor to continually update the system and
                                   to improve the quality of the data. They noted that they modified many
                                   of the data fields, including those related to identifying the primary
                                   appellant and processing dates. In addition, they developed an internal
                                   data standardization policy that provides staff guidance on the
                                   definitions and use of each data field to promote more consistent data
                                   entry.


                  Available data indicate that in its                                                    During its first 13 months of operation,
                      first 13 months of operation,                                                      OMHA received 6,085 cases that were
                 OMHA did not decide a number of                                                         required to be decided within 90 days.27
                       its cases in a timely manner                                                      OMHA received an additional
                                                                                                         14,682 cases that were not required to
                                   be decided within 90 days.
                                   Fifteen percent of the cases that had a 90-day decision requirement and a
                                   decision date in the appeals system were not decided on time
                                   Of the 6,085 cases that were subject to the 90-day decision requirement,
                                   3,278 had a decision date recorded in the appeals system. On average,
                                   OMHA decided these cases in 82 days. As shown in Table 2 on the next
                                   page, 15 percent of these cases (501) were not decided within 90 days.




                                   27 This requirement applies to cases that were received after the implementation of the
                                   BIPA that pertain to Medicare Parts A or B. It does not apply if OMHA approves a request
                                   for an in-person hearing, if the appellant signs a waiver relinquishing the right to have the
                                   case decided within 90 days, and in other special circumstances such as when a case is
                                   escalated to the ALJ level because the prior level did not complete the reconsideration
                                   within the federally required timeframe. Furthermore, it does not apply to Medicare
                                   Parts C or D cases.



    O E I - 0 2 - 0 6 - 0 0 11 0   M E D I C A R E A D M I N I S T R AT I V E L AW J U D G E H E A R I N G S : E A R LY I M P L E M E N TAT I O N , 2 0 0 5 – 2 0 0 6   16
F    I N D I N G                        S            





                              Table 2: Timeliness of Cases With a 90-Day Decision Requirement
                                                                                                                                                                   Number of Cases

                              Cases With a Decision Date in Appeals System (N=3,278)
                                   Decided within 90 days                                                                                                                    2,777
                                   Not decided within 90 days                                                                                                                 501
                              Cases Without a Decision Date in Appeals System (N=2,807)
                                   In appeals system for longer than 90 days                                                                                                 1,180
                                   Not in the appeals system for 90 days                                                                                                     1,627
                                   Total Number of Cases With a 90-Day Decision Requirement                                                                                  6,085
                              Source: OIG analysis of the Medicare Appeals System, 2007.




                                       In addition, 2,807 cases that had a 90-day decision requirement did not
                                       have a decision date recorded in the appeals system. Of these,
                                       1,180 cases had been in the system longer than 90 days, indicating that
                                       OMHA either had not decided these cases within 90 days or had not
                                       recorded the decision dates in the appeals system. The remaining
                                       1,627 cases did not have a decision date but had not been in the appeals
                                       system for 90 days.

                                       The percentage of cases with a decision date that were decided within
                                       the 90-day timeframe increased during the first four quarters of
                                       OMHA’s operation. Notably, 37 percent of the cases received by OMHA
                                       in its first quarter of operation failed to meet the 90-day decision
                                       requirement. In comparison, 10 percent of the cases that OMHA
                                       received in its fourth quarter of operation failed to meet the 90-day
                                       requirement. See Appendix E for an analysis by quarter.

                                       In addition, the average number of days that OMHA took to decide
                                       these cases differed by field office and by size of the case. Among the
                                       four OMHA field offices, the average number of days varied from
                                       59 to 88. Cases with 10 or more associated claims took an average of
                                       95 days, compared to 82 days for cases with only one associated claim.
                                       See Appendix F for additional information about the average number of
                                       days to decision.
                                       Cases without the 90-day decision requirement took longer to decide
                                       A total of 14,682 cases were not subject to the 90-day decision
                                       requirement. About 90 percent of these cases were Medicare
                                       Parts A or B cases; the remaining cases were Parts C or D cases.



    O E I - 0 2 - 0 6 - 0 0 11 0       M E D I C A R E A D M I N I S T R AT I V E L AW J U D G E H E A R I N G S : E A R LY I M P L E M E N TAT I O N , 2 0 0 5 – 2 0 0 6     17
F    I N D I N G                    S


                                   Almost all of the Parts A and B cases (94 percent) were submitted prior
                                   to the implementation of the BIPA.

                                   Of the 14,682 cases, 8,500 had a decision date in the appeals system.
                                   Of these, 45 percent took longer than 90 days to decide, and 12 percent
                                   took longer than 6 months to decide. On average, these cases were
                                   decided in 107 days, about 25 days longer than the cases that had a
                                   90-day requirement. The other 6,182 cases did not have a decision date
                                   recorded in the appeals system. Approximately 35 percent of these
                                   cases had been in the appeals system longer than 6 months.

                                   On average, the Parts C and D cases without the 90-day decision
                                   requirement were decided in 82 days, the same as the cases with a
                                   90-day decision requirement. In contrast, the Parts A and B cases
                                   without the 90-day decision requirement were decided, on average, in
                                   110 days. See Appendix G for more information about the cases that
                                   were not subject to the 90-day requirement.
                                   Delays occurred early in the appeals process
                                   For cases both with and without a 90-day decision requirement, delays
                                   occurred early in the appeals process. As shown in Figure 1 below, for
                                   the 6,203 cases that had a hearing, OMHA took an average of 66 days to
                                   schedule a hearing from the time that it received the appeals request.28
                                   The next stage—from scheduling the hearing to the completion of the
                                   hearing—took 29 days, on average. Finally, the last stage, from the
                                   completion of the hearing to mailing the decision letter to the appellant,
                                   took an average of 19 days. Other than the 90-day decision requirement
                                   and the requirement that the notice of hearing be sent at least 20 days
                                   before the hearing, there are no other Federal requirements regarding
                                   the timeline for processing appeals requests.


                                          Figure 1: Average Number of Days To Complete Key Steps in
                                          the Appeals Process
                                                                          66 days                                                      29 days                 19 days

                                        Request                                                                 Scheduling                       Hearing  Decision
                                        Received                                                                Completed                       Completed Letter


                                     Source: OIG analysis of the Medicare Appeals System, 2007.



                                   28 The analyses in this section include only the cases that have information on the relevant
                                   dates in the appeals system.



    O E I - 0 2 - 0 6 - 0 0 11 0   M E D I C A R E A D M I N I S T R AT I V E L AW J U D G E H E A R I N G S : E A R LY I M P L E M E N TAT I O N , 2 0 0 5 – 2 0 0 6    18
F    I N D I N G                    S


                                   Several appellants noted that the longest time lag in the appeals
                                   process occurred between filing the appeal and receiving the first
                                   communication from OMHA, either in the form of a letter
                                   acknowledging receipt of the appeal request or a telephone call. Sample
                                   appellants and OMHA staff suggested that some of the delay is due to
                                   OMHA’s difficulties in obtaining the complete case files from the prior
                                   level of appeals.




    O E I - 0 2 - 0 6 - 0 0 11 0   M E D I C A R E A D M I N I S T R AT I V E L AW J U D G E H E A R I N G S : E A R LY I M P L E M E N TAT I O N , 2 0 0 5 – 2 0 0 6   19
Δ       R E C O M M E N D A T I O N S



                               In the first 13 months of its operation, OMHA conducted most of its
                               hearings by telephone rather than by video teleconference or in person.
                               Some sample appellants reported that OMHA staff promoted the
                               telephone option over the other formats and did not always provide
                               video teleconference as an option. We also found that most sample
                               appellants were satisfied with the format of their hearings, although
                               several experienced technical difficulties with telephone and video
                               teleconference hearings.

                               Additionally, we found that some of the data in the appeals system were
                               incomplete and inaccurate. This not only limited our ability to analyze
                               the data, but also limits OMHA’s ability to manage its caseload.
                               Finally, based on available data, we found that 15 percent of the cases
                               that had a 90-day decision requirement and a decision date in the
                               appeals system were not decided on time. The delays for these cases, as
                               well as for cases that did not have a 90-day decision requirement,
                               occurred primarily early in the appeals process.

                               Based on the findings in this report, we recommend that OMHA:
                               Consistently Offer Appellants the Option of Video Teleconference
                               OMHA should consistently direct appellants to hearings by video
                               teleconference, if available. To ensure compliance with the regulations,
                               OMHA should standardize its scheduling process and document the
                               factors that ALJs consider when selecting the hearing format (e.g.,
                               whether video teleconference technology is available and whether the
                               hearing request or administrative record suggests that a telephone
                               hearing might be more convenient for one or more of the parties).
                               Further, OMHA should encourage staff to identify available video
                               teleconference sites before contacting the appellant to schedule the
                               hearing, when appropriate. OMHA should also have standard protocols
                               for making and documenting decisions to grant in-person hearings.
                               Continue To Improve the Timeliness of Cases With the 90-Day Decision
                               Requirement
                               OMHA should meet the 90-day decision statutory timeframe for all
                               cases subject to this requirement. OMHA should pay particular
                               attention to reducing the delays that occur between the time when
                               OMHA receives the appeal request and the time when staff schedule a
                               hearing. OMHA should also ensure that meeting the 90-day decision



O E I - 0 2 - 0 6 - 0 0 11 0   M E D I C A R E A D M I N I S T R AT I V E L AW J U D G E H E A R I N G S : E A R LY I M P L E M E N TAT I O N , 2 0 0 5 – 2 0 0 6   20
R    E C O                  M M E N D A T                            I O N               S


                                   requirement does not cause undue delays for cases without the 90-day
                                   decision requirement.
                                   Address Problems Associated With Telephone and Video Teleconference
                                   Hearings
                                   OMHA should address the problems associated with holding hearings
                                   over the telephone and via video teleconference. OMHA should work
                                   with its contractors to ensure that the video teleconference equipment is
                                   set up on time and available for the duration of the hearing. It should
                                   also work to eliminate any technical difficulties, such as feedback and
                                   poor picture quality. Finally, OMHA should develop strategies for
                                   referring to documents in the case files to help improve communication
                                   during the hearing between appellants and ALJs.
                                   Improve the Quality of the Data in the Appeals System
                                   OMHA should ensure that the data problems that we identified have
                                   been addressed. Specifically, OMHA should continue to improve the
                                   quality of the data so that it can use the appeals system to better
                                   manage its caseload and more accurately report on key aspects of the
                                   program. OMHA should also continue to refine its data standardization
                                   policy and provide any necessary training to staff. Lastly, OMHA
                                   should institute regular data checks to eliminate invalid entries and
                                   instances of missing data.


                                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                                   RESPONSE
                                   OMHA concurred with all four of our recommendations based on our
                                   analysis of its first 13 months of operations. OMHA noted that it had
                                   previously identified the same findings and recommendations as
                                   internal areas of concern and has taken measures to address them.

                                   In response to our first recommendation, OMHA noted that since OIG
                                   conducted its analysis, it has implemented a comprehensive training
                                   program for staff involved in scheduling hearings to standardize the
                                   scheduling process. OMHA implemented a “train the trainer” course so
                                   that every field office understands the statutory and regulatory hearing
                                   requirements. It also performs random unannounced screenings of the
                                   scheduling procedures to ascertain the effectiveness of the training and
                                   to institute remedial measures, if necessary. Additionally, OMHA
                                   modified the appeals system to record and track the requested and
                                   actual hearing formats.


    O E I - 0 2 - 0 6 - 0 0 11 0   M E D I C A R E A D M I N I S T R AT I V E L AW J U D G E H E A R I N G S : E A R LY I M P L E M E N TAT I O N , 2 0 0 5 – 2 0 0 6   21
R    E C O                  M M E N D A T                            I O N               S


                                   In response to our second recommendation, OMHA stated that it has
                                   improved its case processing times for the cases subject to the 90-day
                                   decision statutory timeframe. Further, OMHA noted that a substantial
                                   number of delays occurred because it was not timely receiving the full
                                   case files from the previous appeals level. To address this concern,
                                   OMHA reported meeting regularly and entering into a memorandum of
                                   understanding with the CMS and its contractors that adjudicate Level 2
                                   appeals. OMHA also noted that it has reduced its processing times for
                                   the cases not subject to the 90-day requirement.

                                   In response to our third recommendation, OMHA stated that it has
                                   taken numerous steps to address technical difficulties associated with
                                   telephone and video teleconference hearings. For example, OMHA
                                   performed significant software upgrades to its video teleconference
                                   infrastructure. It also has in place for staff guidance regarding
                                   coordination with vendors for real-time resolution of technical issues
                                   and extensions of hearing duration. Further, OMHA developed a more
                                   refined process for accurately referencing documents in the case file
                                   during a hearing. It provided supplemental guidance to ALJs regarding
                                   the exhibit list that should be prepared and required the exhibit lists to
                                   be provided to all parties along with the Notice of Hearing or at the
                                   earliest opportunity before the hearing.

                                   In response to our fourth recommendation, OMHA stated that it has
                                   instituted additional business rules and recurring data checks for logic
                                   in the appeals system. OMHA has also implemented a data
                                   standardization policy and training on the new requirements. In
                                   addition, OMHA stated that it is examining many date fields identified
                                   in the report as missing or inaccurate and will include additional date
                                   validation changes in upgrades to the appeals system later this year.
                                   OMHA noted that it has established a users group to explore appeals
                                   system improvements and that its headquarters performs weekly and
                                   monthly data quality checks and alerts field offices when errors or
                                   anomalies are identified.

                                   We recognize OMHA’s efforts to address these issues and encourage it
                                   to continue to make progress in these areas. The full text of OMHA’s
                                   comments is included in Appendix H.




    O E I - 0 2 - 0 6 - 0 0 11 0   M E D I C A R E A D M I N I S T R AT I V E L AW J U D G E H E A R I N G S : E A R LY I M P L E M E N TAT I O N , 2 0 0 5 – 2 0 0 6   22
Δ       R P
        A E P
            C E
              O NM DM I E X N ~ D A A T I O N S



                               Medicare Parts A and B Administrative Appeals Process
                               Below is an overview of the four levels of the Medicare administrative
                               appeals process for Medicare Parts A and B.
                               Level One: Affiliated Contractor Redetermination
                               At the first level, an appellant may request a redetermination with an
                               Affiliated Contractor (i.e., Medicare carrier or fiscal intermediary)
                               within 120 days of receipt of the notice of the initial determination.29
                               The redetermination must be made by an individual who was not
                               involved in the initial determination. This individual reviews evidence,
                               including previously submitted evidence and any additional evidence
                               that the parties submit or the individual obtains, to uphold or reject the
                               initial determination. At both this level and the second level, the
                               appellant may contest a denied claim of any dollar amount. Generally,
                               the Affiliated Contractor must make a redetermination decision within
                               60 days of receipt of the request for redetermination.
                               Level Two: Qualified Independent Contractor Reconsideration
                               If the appellant does not agree with the Level One decision, the
                               appellant may request a reconsideration with a Qualified Independent
                               Contractor (QIC) within 180 days of receipt of the Level One decision.30
                               In a manner similar to the Level One review, the QIC reviews historical
                               evidence and prior findings, as well as any new evidence submitted by
                               the appellant. QICs are bound by national coverage determinations
                               (NCDs), the Centers for Medicare & Medicaid Services (CMS) Rulings,
                               and applicable laws and regulations.31 QICs are not bound by local
                               coverage determinations (LCDs), local medical review policies (LMRPs),
                               or CMS program guidance, such as program memoranda and manual
                               instructions, but do give substantial deference to those policies, if




                               29 See generally 42 U.S.C. §§ 1395ff(a)(3) and (5) and 42 CFR §§ 405.940−405.958 

                               (specifying Federal requirements for redeterminations). 

                               30 42 U.S.C. § 1395ff(b)(1)(D)(i). QICs are a new type of Medicare contractor created to

                               conduct reconsiderations. See generally 42 U.S.C. § 1395ff(c) and 42 CFR 

                               §§ 405.960−405.978 (specifying Federal requirements for reconsiderations). 

                               31 42 CFR § 405.968(b)(1). 





O E I - 0 2 - 0 6 - 0 0 11 0   M E D I C A R E A D M I N I S T R AT I V E L AW J U D G E H E A R I N G S : E A R LY I M P L E M E N TAT I O N , 2 0 0 5 – 2 0 0 6   23
A    P      P E N D                I X            A


                                   applicable.32 Generally, a QIC has 60 days to make a decision from the
                                   date when the appellant filed an appeal.33
                                   Level Three: Administrative Law Judge Hearing
                                   If an appellant wants to contest a Level Two reconsideration, the
                                   appellant may request a hearing before an administrative law judge
                                   (ALJ).34 35 This request must be filed within 60 days from the receipt of
                                   notice of the Level Two reconsideration decision. At this level, the
                                   minimum amount in controversy is $120.36 ALJs are bound by NCDs,
                                   but an ALJ may review the facts of a particular case to determine
                                   whether an NCD applies to a specific claim for benefits and, if so,
                                   whether the NCD was applied correctly to the claim.37 ALJs are not
                                   bound by LCDs, LMRPs, or CMS program guidance, such as program
                                   memorandums and manual instructions, but ALJs do give substantial
                                   deference to those policies, if applicable.38 Generally, the ALJ must
                                   decide the case within 90 days of the date that the appeal request was
                                   filed.
                                   Level Four: Medicare Appeals Council Review
                                   If the appellant disagrees with the Level Three decision, the appellant
                                   may request a review with the Medicare Appeals Council (MAC)39
                                   within 60 days of receipt of the ALJ hearing decision.40 This is the last
                                   level of administrative review available to appellants. MAC may deny a
                                   request, undertake a review, or remand the case to an ALJ for further
                                   action. When MAC reviews an ALJ decision, it undertakes a

                                   32 42 CFR § 405. 968(b)(2). 

                                   33 Starting at Level Two, an appellant may escalate an appeal if it is not dealt with in a 

                                   timely manner by the appeals body. For example, a request for an administrative law judge 

                                   (ALJ) hearing may be submitted if the QIC does not decide the appeal within 60 days. 

                                   42 U.S.C. § 1395ff(c)(3)(C)(ii). 

                                   34 ALJs also handle Level Three appeals for Medicare Parts C and D. For Part C, 

                                   see 42 CFR §§ 422.600 and 422.602; for Part D, see 42 CFR §§ 423.610 and 423.612. 

                                   35 See generally 42 U.S.C. § 1395ff(d) and 42 CFR § 405.1000−405.1054 (specifying Federal 

                                   requirements for ALJ hearings).

                                   36 42 U.S.C. § 1395ff(b)(1)(E); 42 CFR § 405.1006(b)(1). See 72 Fed. Reg. 73348 

                                   (Dec. 27, 2007) for adjustment to Medicare appeals amount in controversy for 2008. 

                                   37 42 CFR § 405.1060(b). 

                                   38 42 CFR § 405.1062(a). 

                                   39 Medicare Parts C and D also provide for a Level Four review with the Medicare Appeals 

                                   Council. For Part C, see 42 CFR § 422.608; for Part D, see 42 CFR § 423.620. 

                                   40 42 CFR § 405.1102(a)(1). MAC is a division of the Department of Health and Human 

                                   Services’ Departmental Appeals Board and consists of Administrative Appeals Judges. An 

                                   appellant may also request a review by MAC if the ALJ does not complete its review within

                                   90 days. 42 U.S.C. ' 1395ff(d)(3)(A), 42 CFR § 405.1106(b). See generally 42 U.S.C. 

                                   § 1395ff(d) and 42 CFR §§ 405.1100−405.1140 (specifying Federal requirements for MAC 

                                   reviews). 




    O E I - 0 2 - 0 6 - 0 0 11 0   M E D I C A R E A D M I N I S T R AT I V E L AW J U D G E H E A R I N G S : E A R LY I M P L E M E N TAT I O N , 2 0 0 5 – 2 0 0 6   24
A    P      P E N D                I X            A


                                   de novo review. MAC is bound by NCDs, but may review the facts of a
                                   particular case to determine whether an NCD applies to a specific claim
                                   for benefits and, if so, whether the NCD was applied correctly to the
                                   claim.41 MAC is not bound by LCDs, LMRPs, or CMS program
                                   guidance, but MAC does give substantial deference to those policies, if
                                   applicable.42 Generally, MAC must make a decision within
                                   90 days of the filing date. If the appellant disagrees with the MAC
                                   decision and the amount in controversy is at least $1,180,43 the
                                   appellant may file a civil action in Federal District Court within 60 days
                                   of receiving the MAC decision.




                                   41 42 CFR § 405.1060(c). 

                                   42 42 CFR § 405.1062(a). 

                                   43 42 CFR § 405.1136, 42 U.S.C. § 1395ff(b)(1)(E); 42 CFR § 405.1006(c)(1). 

                                   See 72 Fed. Reg. 73348 (Dec. 27, 2007) for adjustment to Medicare appeals amount in 

                                   controversy for 2008. 




    O E I - 0 2 - 0 6 - 0 0 11 0   M E D I C A R E A D M I N I S T R AT I V E L AW J U D G E H E A R I N G S : E A R LY I M P L E M E N TAT I O N , 2 0 0 5 – 2 0 0 6   25
Δ                A P P E N D I X ~ B




Number of Sample Cases, by Stratum
                                                                                                          Number of Cases
                                    Number of                      Number of Cases                                                                Number of Cases in
                                                                                                              in Which the
Stratum                               Sample                        Removed From                                                                  Which the Appellant
                                                                                                          Appellant Did Not
                                       Cases                               Sample                                                                         Responded
                                                                                                                  Respond
Telephone                                         70                                          2                                      10                                  58

Video Teleconference                              75                                          2                                        9                                 64

In Person                                         75                                        10                                         5                                60

Unidentified                                      50                                          2                                        5                                43
      Total                                     270                                         16                                       29                                 225
Note: Cases were removed from the sample either because the Office of Inspector General (OIG) was conducting investigations related
to appellants associated with the cases or because they did not have hearings.

Source: OIG analysis of sample cases, 2007.




    O E I - 0 2 - 0 6 - 0 0 11 0   M E D I C A R E A D M I N I S T R AT I V E L AW J U D G E H E A R I N G S : E A R LY I M P L E M E N TAT I O N , 2 0 0 5 – 2 0 0 6         26
Δ                A P P E N D I X ~ C




Inaccuracies in the Hearing Format Data in the Appeals System
                                    Hearing Format as Reported by Sample
                                                                                                                          Identified in Appeals System
                                                 Appellants
Hearing Format as                                                                                                                                       Incorrectly
Reported in the                                                       Video                         In
Appeals System                      Telephone                Teleconference                    Person                   Correctly              Number             Percentage
Telephone                                        56                                 1                    1                         56               2                     3%
Video Teleconference                              3                                61                    0                         61               3                     5%
In Person                                        14                                 1                   45                         45              15                   25%
Unidentified                                     34                                 4                    5                        N/A             N/A                    N/A
     Total                                      107                                67                   51                        162              20                   11%
Source: OIG analysis of interviews with sample appellants, 2007.




    O E I - 0 2 - 0 6 - 0 0 11 0   M E D I C A R E A D M I N I S T R AT I V E L AW J U D G E H E A R I N G S : E A R LY I M P L E M E N TAT I O N , 2 0 0 5 – 2 0 0 6          27
Δ             A P P E N D I X ~ D




Confidence intervals for Selected Estimates

(Sample size = 225 cases that had hearings)

                                                                                                                       Point                                 95-Percent
Percentage of Hearings Conducted:
                                                                                                                    Estimate                         Confidence Interval

   By telephone                                                                                                         78.4%                                73.4%–83.4%

   By video teleconference                                                                                              11.6%                                  8.0%–15.1%

   In person                                                                                                            10.0%                                  6.1%–13.9%



                                                                                                                       Point                                 95-Percent
Percentage of Cases That Had Hearings:
                                                                                                                    Estimate                         Confidence Interval

   In which the primary appellant was a Medicare provider or
                                                                                                                        77.8%                                71.3%–84.4%
   supplier

   In which the primary appellant was a beneficiary                                                                     14.5%                                  8.5%–20.5%

   That were pursued by State Medicaid organizations                                                                      7.6%                                 4.3%–10.9%
Source: OIG analysis of interviews with sample appellants, 2007.




 O E I - 0 2 - 0 6 - 0 0 11 0   M E D I C A R E A D M I N I S T R AT I V E L AW J U D G E H E A R I N G S : E A R LY I M P L E M E N TAT I O N , 2 0 0 5 – 2 0 0 6      28
Δ            A P P E N D I X ~ E




  Number and Percentage of Cases That Failed To Meet the 90-Day Requirement,
  by Quarter
                                   Number of             Number of Cases That Failed                                Percentage of Cases That Failed
 Quarter
                               Decided Cases             To Meet 90-Day Requirement                                    To Meet 90-Day Requirement
     st
 1                                          147                                                        54                                                           37%

     nd
 2                                          490                                                      103                                                            21%

     rd
 3                                       1,138                                                       204                                                            18%

     th
 4                                       1,407                                                       140                                                            10%
                                                                                                                                    th
Note: Ninety-six cases were excluded from this analysis because they were received after the 4 quarter.


Source: Office of Inspector General analysis of the first 12 months of the Medicare Appeals System, 2007. 





O E I - 0 2 - 0 6 - 0 0 11 0         M E D I C A R E A D M I N I S T R AT I V E L AW J U D G E H E A R I N G S : E A R LY I M P L E M E N TAT I O N , 2 0 0 5 – 2 0 0 6   29
Δ            A P P E N D I X ~ F




                               Average Number of Days to Decision for Cases With a
                               90-Day Requirement, by Office of Medicare Hearings and
                               Appeals Field Office
                                                                                        Number of                Average Number of
                               Field Office
                                                                                 Decided Cases                        Days to Decision

                               Arlington                                                              70                                       59

                               Cleveland                                                         1,587                                         88

                               Irvine                                                               778                                        67

                               Miami                                                                843                                        88

                               Source: OIG analysis of the first 13 months of the Medicare Appeals System, 2007.




                               Average Number of Days to Decision for Cases With a
                               90-Day Requirement, by Number of Claims
                                                                                        Number of                    Average Number of
                               Case Size
                                                                                Decided Cases                            Days to Decision

                               1 Claim                                                          2,855                                             82

                               2–9 Claims                                                          364                                            87

                               ≥10 Claims                                                            28                                           95

                               Note: Thirty-one cases were excluded from this analysis because the number of
                               associated claims was missing from the appeals system.

                               Source: OIG analysis of the first 13 months of the Medicare Appeals System, 2007.




O E I - 0 2 - 0 6 - 0 0 11 0            M E D I C A R E A D M I N I S T R AT I V E L AW J U D G E H E A R I N G S : E A R LY I M P L E M E N TAT I O N , 2 0 0 5 – 2 0 0 6   30
Δ            A P P E N D I X ~ G




                 Timeliness of Cases Without a 90-Day Requirement
                                                                                                                                      Number of
                                                                                                                                         Cases
                 Cases With a Decision Date in Appeals System (N=8,500)

                        Decided within 6 months                                                                                                 7,500

                        Not decided within 6 months                                                                                             1,000

                 Cases Without a Decision Date in Appeals System (N=6,182)

                        In appeals system for longer than 6 months                                                                              2,141

                        Not in the appeals system for 6 months                                                                                  4,041

                 Total Number of Cases Without a 90-Day Requirement                                                                          14,682

                  Source: Office of Inspector General analysis of the Medicare Appeals System, 2007.




O E I - 0 2 - 0 6 - 0 0 11 0     M E D I C A R E A D M I N I S T R AT I V E L AW J U D G E H E A R I N G S : E A R LY I M P L E M E N TAT I O N , 2 0 0 5 – 2 0 0 6   31
Δ       A P P E N D I X ~ H




O E I - 0 2 - 0 6 - 0 0 11 0   M E D I C A R E A D M I N I S T R AT I V E L AW J U D G E H E A R I N G S : E A R LY I M P L E M E N TAT I O N , 2 0 0 5 – 2 0 0 6   32
A    P      P E N D                I X            H            





    O E I - 0 2 - 0 6 - 0 0 11 0   M E D I C A R E A D M I N I S T R AT I V E L AW J U D G E H E A R I N G S : E A R LY I M P L E M E N TAT I O N , 2 0 0 5 – 2 0 0 6   33
A    P      P E N D                I X            H            





    O E I - 0 2 - 0 6 - 0 0 11 0   M E D I C A R E A D M I N I S T R AT I V E L AW J U D G E H E A R I N G S : E A R LY I M P L E M E N TAT I O N , 2 0 0 5 – 2 0 0 6   34
Δ       A C K N O W L E D G M E N T S


                               This report was prepared under the direction of Jodi Nudelman,
                               Regional Inspector General for Evaluation and Inspections in the New
                               York regional office, and Meridith Seife, Deputy Regional Inspector
                               General.

                               Principal Office of Evaluation and Inspections staff from the New York
                               regional office who contributed to the report include Judy Bartlett,
                               Christine Moundas, and Ellen Vinkey; other regional and central office
                               staff who contributed include Lucia Fort, Christi Macrina,
                               Scott Manley, Michelle McInnis, and Barbara Tedesco.




O E I - 0 2 - 0 6 - 0 0 11 0   M E D I C A R E A D M I N I S T R AT I V E L AW J U D G E H E A R I N G S : E A R LY I M P L E M E N TAT I O N , 2 0 0 5 – 2 0 0 6   35
